Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   PHYSICIAN OFFICE SURGERY




                JUNE 1993
,

                          OFFICE OF INSPECI’OR GENERAL

    The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
    amended, is to protect the integri~ of the Department of Health and Human Services’ (HHS)
    programs as well as the health and welfare of beneficiaries served by those programs. This
    statutory mission is carried out through a nationwide network of audits, investigations, and
    inspections conducted by three OIG operating components: the Office of Audit Services, the
    Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
    the Secretary of HHS of program and management problems and recommends courses to
    correct them.

                              OFFICE OF AUDIT SERVICES

    The OIG’S Office of Audit Services (OAS) provides all auditing sexvices for HHS, either by
    conducting audits with its own audit resources or by overseeing audit work done by others.
    Audits examine the performance of HHS programs and/or its grantees and contractors in
    carrying out their respective responsibilities and are intended to provide independent
    assessments of HHS programs and operations in order to reduce waste, abuse, and
    mismanagement and to promote economy and efficiency throughout the Department.

                              OFFICE OF INVESTIGATIONS

    The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative

    investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

    unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

    administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

    control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


                  OFFICE OF EVALUATION AND INSPECTIONS

    The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
    program evaluations (called inspections) that focus on issues of concern to the Department,
    the Congress, and the public. The findings and recommendations contained in these inspection
    reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
    and effectiveness of departmental programs. This report was prepared in the Kansas City
    regional office under the direction of Jim Wolf, Regional Inspector General. Project staf~

    Kansas City                                          Headquarters

    Tim Dold, Project Leader                             Cathaleen Ahern, Program Specialist
    Dennis Tharp, Program Analyst                        Barbara Tedesco, Statistician


    To obtain a copy of this report, call the Kansas City Regional Office at (816) 426-3697.
              EXECUTIVE                           SUMMARY

PURPOSE

To evaluate the appropriateness of the surgical setting, the medical necessity of the
surgery, and quality of care for selected surgical procedures performed in physicians’
offices.

BACKGROUND

The volume of outpatient surgery continues to increase as reimbursement regulations
change for inpatient surgical procedures. As medical technology improves, more
surgeries are being performed in outpatient settings. These settings include
ambulatory surgical centers, emergency centers, and single/multi-specialty physicians’
offices. Surgeries in these settings can be as simple as laceration repair and as
complex as cataract surgery.

The Health Care Financing Administration     (HCFA) is concerned that the services
provided to Medicare beneficiaries may not be reasonable and necessary.      However,
neither the Social Security Act nor the Medicare regulations specifically define quality
of care for particular services performed in an office setting.

Until recently, the quality of procedures rendered to Medicare beneficiaries in
physicians’ offices was not subject to any type of review. Section l154(a)(4)(A)  of the
Social Security Act required that “Each peer review organization (PRO) shall provide
... a reasonable allocation of such [quality review] activities is made among the
different cases and settings” except that PRO review in physician offices could not
begin before January 1, 1989. Currently, HCFA is conducting two pilot projects
involving a total of 10 PROS. These PROS will review medical services provided in
physicians’ offices. However, there is no general quality of care review of physician
office surgery currently in place.

METHODOLOGY

We selected a sample of surgeries containing procedure codes for bunionectomies,
dilation and curettage, and excisions of breast lesions. We drew the sample from 1989
Part B Medicare Annual Data which showed these surgeries were performed in
physicians’ offices. A medical contractor reviewed office medical records for these
surgeries. We also obtained   allowable   charge information   on certain   procedure   codes
from 11 Medicare carriers.

FINDINGS

One-Fijlh of Medical Records Reviewed Dii Not Document Reasonable Quali@ of Care




                                              i
The physician reviewers found that in 25 of the 122 surgeries (20 percent) the medical
records did not document reasonable quality of care. This projects nationally to 2,500
physician office surgeries for those procedure codes where medical records do not
document reasonable quality of care.

l%irteen Percent of the Medical Records Did Not Document an Indication For Sugery

The physician reviewers found in 16 of the 122 surgeries (13 percent) the medical
records did not document an indication for surgery, and therefore were not medically
necessary. Projected nationally, Medicare paid $603,058 for medically unnecessary
bunionectomies and excisions of breast lesions.

27zePhysi”ciank Once Was Not An Appropriate Setting for A Small Number of Su~eries

The physician reviewers found that in six surgeries the physician’s office was not an
appropriate setting for the surgeries. The office setting was inappropriate due to the
patient’s level of illness or the type of anesthesia.

In 16 Percent of Our Sample Cases, I?rocedure Codes Did Not Match ~he Su~eries
Pe#ormed

The physician reviewers found in 20 cases that the specific surgeries performed did not
match one of the procedure codes included in this study. In only one instance did a
physician bill a procedure code with an allowable charge that was less than the
appropriate procedure code. All the others were billed in excess of the allowable
charge for the correct procedure code. The difference in allowable charges between
the submitted procedure code and the correct code amounts to $3,130.98. This
projects nationally to $313,098 in upcoded claims for the procedure codes under study.

RECOMMENDATIONS

PROS Shoukl Ektend Their Review to Surge~ Peflonned in Physicians’ Ofjces

The results of this inspection confirm that quality assurance and peer review activities
are needed in physicians’ offices, for the reasons cited in section 1154 of the Social
Security Act. As discussed in section 1154, (1) we have demonstrated problems exist
regarding quality of care, (2) the yield in terms of numbers and seriousness of quality
of care problems is apt to be significant, and (3) there is no other source of quality
review, quality assurance, or peer review.

AGENCY COMMENTS

We have received comments on the draft report from HCFA. While HCFA generally
concurs with our findings and recommendation, they wish to defer comment on the
recommendation pending the completion of two PRO pilot projects to test the
feasibility of physician office review and the development of a review protocol. We


                                            ii
agree that information gained in the pilot projects is important and should be
considered in any proposal to expand review in outpatient sites.
                                                  �



The full text of their comments is included in Appendix E.




                                           ...
                                           111�
                  TABLE                     OF CONTENTS

EXECUTIVESUMMARY                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODLKXION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS


   Quality of Care     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Medical Necessity       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


   Appropriateness     ofSetting         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


   Procedure Coding        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6



RECOMMENDATIONS                  .........................................                                                 7


AGENCY COMMENTS                ..........................................                                                  8


APPENDICES


   A. Procedure   Codes by Placeof            Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


   B. Methodology      ..............................................                                               B.:�



   C, Medical Review Worksheet.                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c.:


   D. Differences in Allowable Charges                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


   E. Health Care Financing Administration                  Comments           . . . . . . . . . . . . . . . . . . E-1

                          INTRODUCTION

PURPOSE

To evaluate the appropriateness of the surgical setting, the medical necessity of the
surgery, and quality of care for selected surgical procedures performed in physicians’
offices.

BACKGROUND

The volume of outpatient surgery continues to increase as reimbursement regulations
change for inpatient surgical procedures. As medical technology improves, more
surgeries are performed in outpatient se~tings. These settings include ambulatory
surgical centers (ASCS), emergency centers, and single/multi-specialty physicians’
offices. Surgeries in these settings can be as simple as laceration repair and as
complex as cataract surgery. The following illustrates the recent increases in the total
number of surgeries allowed by Medicare and performed in physicians’ offices.

FISCAL YEAR          ALLOWED       PROCEDURES            ALLOWED       CHARGES

       1987                 24,397,912                          $1,387,857,158

       1989                 30,010,156                          $1,768,395,391

       1991                 38,475,582                          $2,027,877,728

The Health Care Financing Administration (HCFA) is concerned that the services
provided to Medicare beneficiaries may not be reasonable and necessary. Section
1862(a)(l)(A) of the Social Security Act states that “Notwithstanding any other
provision of this title, no payment may be made under part A or part B for any
expenses incurred for items or services which ...are not reasonable and necessary for
the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.” However, neither the Social Security Act nor the Medicare
regulations specifically define quality of care for particular services performed in an
office setting.

Section 1154(a)(4)(A) of the Social Security Act required that “Each peer review
organization (PRO) shall provide that . . . a reasonable allocation of such [quality
review] activities is made among the different cases and settings (including post-acute-
care settings, ambulatory settings, and health maintenance organizations) except that
PRO review in physician offices could not begin before January 1, 1989. In
establishing such allocation, the organization shall consider (i) whether there is reason
to believe that there is a particular need for reviews of particular cases and settings
because of previous problems regarding quality of care, (ii) the cost of such reviews
and the likely yield of such reviews in terms of number and seriousness of quality of


                                             1
    care problems likely to be discovered as a result of such reviews, and (iii) the
    availability and adequacy of alternative quality review and assurance mechanisms.”

    Currently, HCFA is conducting two pilot projects invoking a total of 10 PROS which
    address peer review of services provided in a physicians’ offices. The Delmarva
    Foundation (Maryland PRO) is working on a pilot project with two PROS, reviewing
    primary-care services provided in physician offices. The scheduled completion date for
    this project is September 1993. The other project, The Wisconsin Ambulatory Review
    Project (WARP), involves seven PROS. This project will develop and assess a system
    for monitoring the quality and cost effectiveness of ambulatory medical care for office-
    based practices. The WARP began December 1, 1989, and was scheduled to last for
    two years. It was extended through November 1992.

    METHODOLOGY

    We selected a sample of 364 surgeries. We drew the sample from 1989 Part B
    Medicare Annual Data (BMAD) which showed these surgeries were performed in
    physicians’ offices. We chose seven procedure codes for bunionectomies, dilation and
    curettage (D & C), and the excision of a breast lesion to represent the more complex
    surgeries completed in physicians’ offices. According to BMAD data, these
    procedures had general anesthesia claims associated with at least 25 percent of the
    surgeries. A chart showing the place of service of the selected codes is shown in
    Appendix A.
i
    We obtained    copies of medical records for the selected surgeries. We worked with
    Medicare carriers to get copies of claims, beneficiary payment histories, and names
    and mailing addresses of physicians who performed office surgeries.     We obtained
    medical records for 247 surgeries. For a variety of reasons, we were not able to
    obtain the medical records for the remaining 117 surgeries. A detailed explanation of
    the 117 surgeries is in Appendix B.

    Based on our review of these records, we determined that 91 surgeries had been

    performed in hospitals or ASCS. The medical records for the remaining 156 surgeries

    were sent to Forensic Medical Advisory Service (FMAS), a medical review contractor.


    The FMAS, working with the Office of Inspector General (OIG), developed

    worksheets to review the medical records. The worksheets contained a variety of data

    elements that focused on preoperative, operative, and postoperative care. Separate

    worksheets were used for each of the three surgical groups. The FMAS used surgeons

    who were experts in their specialty to develop current evaluative criteria for each of

    the procedures.   The reviewers, using professional judgement, completed a narrative

    summary and a worksheet for each case. An example of a medical review worksheet

    is in Appendix C.


    In their review, FMAS found that 14 of the 156 surgeries were not performed in the

    office setting, but in a hospital or ASC. Also, FMAS did not complete all of the



                                               2
information in the medical review worksheets for 20 surgeries because these particular
surgeries did not match one of the procedure codes in this study. The medical review
worksheets were completed for the remaining 122 surgeries.

We also obtained allowable charge information on certain procedure   codes from 11
Medicare carriers.

We conducted our review according to the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                          3

                                 FINDINGS


One-Fifih of Medical Recor& Revz”ewedDid Not Document Reasonable Quality of Care

The physician reviewers found in 25 of the 122 surgical cases (20 percent) that the
medical records did not document reasonable quality of care. We found that these
cases involved surgeries in each of the three surgical groups. Eighteen were
bunionectomy cases, four were D & C cases, and three cases involved the excision of
breast lesions. This projects nationally, for physician office medical records that do
not document reasonable quality of care, to:




The physician reviewers found that in 16 of the 25 cases the preoperative       evaluations
were not adequate.     In one case, the physician reviewer stated “there is a marked lack
of information regarding a preoperative    history and physical evaluation and laboratory
studies.” In another case, the reviewer noted “the preoperative     evaluation is lacking
for indications for surgical intervention as well as documentation   of vascular status and
overall history and physical.”

The reviewers also found that 3 of the 25 cases had postoperative complications. In a
case involving a breast lesion, the patient developed a postoperative hematoma,
(a localized swelling filled with blood) which took several months to heal. In a
bunionectomy case a procedure was performed while an existing infection of the skin
was present. A cast was applied despite the infection. The patient was put on an
antibiotic regimen, but complications ensued.

A distribution of the preoperative   and postoperative   issues is shown in the table on
the next page.




                                             4

      DISTRIBUTION            OF PREOPERATIVE        AND POSTOPERATIVE            ISSUES





II Bunionectomy           I
                                     18
                                                I
                                                            14
                                                                           r
                                                                                    2
                                                                                                  I
IIItBreast Lesion
                         1
                                     3                      2                       1
                                                                                                  I
    D&C                  I           4          101                                 0             II

Thirteen Percent of the Medical Records Did Not Document an Indication For Sugery

The physician reviewers       found in 16 of the 122 surgeries (13 percent) the medical
records did not document        an indication for surgery, and therefore were not medically
necessary.  For example,       one reviewer noted there is no evidence documenting the
indication for correction     of a bunion. In another case a reviewer stated that there was
no documentation     of the    necessity for the removal of a breast lesion.

The 16 surgeries involve 14 bunionectomies  and 2 excisions of breast lesions. Nine of
these 16 cases are also among the 25 cases where the reviewers determined that the
medical records did not document a reasonable quality of care.

The physicians were paid a total of $6,030.58       for the 16 surgeries.  Because of our
sampling of records for only seven procedure        codes, this projects nationally to only
$603,058 (~52.3%) for medically unnecessary         surgery in physician offices. Therefore,
this estimate can vary by $315,441 for a range       of $287,617-$918,499     at the 90 percent
confidence level.

l%e Physician       Of/ice WW Not An Appropriate Semhg for A Small Number of Surgeries

The physician reviewers found that in 6 of 122 surgeries, the physician’s office was not

an appropriate setting for the surgeries. The office setting was inappropriate due to

the patient’s level of illness or the type of anesthesia administered. The reviewers also

found 1 of the 6 cases not to be medically necessary, and all 6 cases are among the 25

cases where the reviewers determined that the medical records did not

document a reasonable quality of care.


Level of Illness


For three cases, the physician reviewers found the setting was not appropriate for the

type of procedure given the patient’s level of illness. For example, one case involved

                                                                      A.



an 80 year-old female that underwent a bunion procedure. The physician reviewer
stated that according to the medical record, the patient had smalj vessel disease in the



                                               5

    lower extremities. For this reason, the reviewer stated that the setting for the surgery
    was not appropriate.

    Type of Anesthesia

    Physician reviewers determined for three D & C cases that the setting was not
    appropriate due to the type of anesthesia administered, In each of these cases, the
    type of anesthesia included an IV sedative/hypnotic and local anesthesia. In one of
    the three cases, the type of anesthesia also included an IV narcotic. The physicians
    administered the anesthesia in these cases.

    The reviewers stated in each of these cases that the setting was not appropriate
    because of insufficient monitoring of anesthesia and inadequate recording of vital
    signs. The medical records did not document the existence of the necessary additional
    medical staff to conduct these activities. A reviewer commented:

           “It is important that the patient be monitored carefully, not necessarily
            by an anesthesiologist or anesthetist, but by a nurse or physician assistant
            who could appropriately record the vital signs of the patient before, during,
            and after the procedure.”

    In 16 Percent OJOur SampIe Cases, Procedure Codes Did Not Match the Surgeries
    Pe@x_tned
!
    The physician reviewers found that in 20 cases the surgeries documented     in the
    medical records did not match one of the procedure codes in this study. For each of
    these cases, the physician reviewers identified the correct procedure code.

    Through the carriers, we obtained allowable charge information for the revised
    procedure codes. We requested allowable charges for these physicians for 1989, the
    year in which the surgeries were performed.

    Allowable charge information was obtained for 17 of the 20 cases. We found that
    upcoding occurred in 16 cases and downcoding occurred in 1 case. We were unable to
    determine a dollar amount for the remaining three cases. For example, a carrier
    could not provide allowable charge information because the provider never billed the
    procedure code in question and prevailing information had been purged for 1989.

    We compared the original allowable charges with the allowable charges for the revised
    procedure codes. We found upcoding in the 16 cases because the allowable charges
    for the original procedure codes were higher than the allowable charges for the
    revised procedure codes. The total net overpayment amounts to $3,130.98 as shown in
    Appendix D. Again, our use of only seven procedure codes in this study allows us to
    project our results only for those codes. This results in a modest national projection
    of upcoding of $313,098 (f44.6%). This estimate can vary by $139,709 for a range of
    $173,389-$452,807 atthe 90 percent confidence level.


                                                6
                    RECOMMENDATIONS


PROS Shouki &end      Their Review to Stugery Performed in Phyn”cians’Offices


We recognize that the role of PROS and to some degree Medicare carriers, in
conducting the quality assurance function, is evolving from a case-by-case review to
general studies of medical practice. We believe, however, that physician office surgery
involving complex procedures once provided only in an institutional setting deserves
attention.

The results of this inspection confirm that quality assurance and peer review activities
are needed in physicians’ offices, for the reasons cited in section 1154 of the Social
Security Act. As discussed in section 1154, (1) we have demonstrated problems exist
regarding quality of care, (2) the yield in terms of numbers and seriousness of quality
of care problems is apt to be significant, and (3) there is no other source of quality
review, quality assurance, or peer review.

The findings of this inspection relating to quality of care should be compared with the

findings of the PRO pilot projects, to determine whether only surgical cases or ~

medical and surgical cases should be subject to the review allocation required by

section 1154.


Such PRO review should include: (1) assurance that medical records document

reasonable quality of care (both in the sense that documentation     is adequate and that

quality care is rendered), (2) that physicians perform only those procedures

appropriate  for an office setting, (3) that physicians perform only medically necessary

procedures, and (4) that accurate procedure codes are used to submit claims for

physician services.





                                            7

                    AGENCY                COMMENTS


We received comments from HCFA which generally concur with the findings in the
report. The full text of their comments are included in Appendix E.

The HCFA has indicated that they wish to defer comment on the recommendation
that PRO review be extended to surgery performed in physicians’ offices pending the
completion of two PRO pilot projects to test the feasibility of physician office review
and the development of a review protocol. We agree that information gained in the
pilot projects is important and should be considered in any proposal to expand review
in outpatient sites.

The HCFA also expressed concern regarding our estimates and our ability to
distinguish between poor quality of care and poor documentation. The following
information provides additional clarification of these points.

Projections of dollars paid for unnecessary surgery: The projected dollars associated
with medically unnecessary surgery are conservative in that they were based on our
original sample of 328 claims rather than the 122 cases for which we obtained records.
The 206 cases which we did not review were assumed to represent medically-necessary
surgery.

Projections for poor quality care: The projection for poor quality surgeries in
physicians’ offices is based on the 122 cases for which we obtained records. While it is
true that 206 out of our original sample of 328 did drop out, due to either miscoding
of place of service or non-response to our request for records, the remaining 122 cases
are still a random sample. The distribution of this resultant sample represents a
subset of the original. Therefore, the estimates of poor quality of care and the
precision given in the report are based on this subset of the original sample.

The HCFA also questioned whether poor documentation is sufficient proof of poor
quality of care or lack of an indication for surgery. We agree that it is possible that
appropriate care was given in some cases but not documented. However, the vast
majority of cases reviewed were almost certainly unnecessary or of poor quality. For
example, medical review of quality of care revealed that in 18 cases the care was poor
regardless of the presence or absence of information. In seven cases the care may
have been appropriate, but missing information in the medical records made it
impossible to tell. In all cases including the last seven, the missing information would
hamper appropriate care in cases in which another physician renders care following
the original procedure, and must use an inadequate record of indications, test results,
or other pertinent information. HCFA agrees that even percentages smaller than
those we report represent serious problems.

The HCFA acknowledges the dangers of administering anesthesia in physician office
settings but feels it cannot determine the relative danger because the offices vary


                                           8
greatly instandard ofcare, equipment, and personnel training. Our inspection report,
“Surgery in Outpatient Settings: A Four-State Study” (OEI-07-91-01470), released in
1992, identified this danger and recommended that States examine their licensure rules
to ensure the quality of high-risk outpatient procedures, such as those performed
under general anesthesia or intravenous sedation.

The HCFA also suggested clarifications of some details in the report; we have made
pertinent modifications.




                                          9

              APPENDIX             A


   1989 BMAD Procedure Codes by Place of Service




Excision of cyst,
etc., from breast      8.2          23.8           63.2    4.2
Bunionectomy,
Silver type           24.5          24.9           37.0   12.8
Bunionectomy,
Keller, McBride
or Mayo type          27.3          22.9           39.9    8.9
Bunionectomy,
resection of joint
with implant          13.6          26.1           48.6   10.9
Bunionectomy,
with metatarsal
osteotomy             22.3          25.4           42.4    8.6
Bunionectomy, by
phalanx
osteotomy             45,5          14.8           32.1    6.8
Dilation and
curettage, (non-
obstetrical)           9,9          29.1           55.4   5.1




                       A -1

  APPENDIX         C

MEDICAL REVIEW WORKSHEET
         EXAMPLE




           c-1
. .. —.-     - .- —. -—. . . . . .      .3         ----




                       D~S      TASK ORDER                26:      PHYSICIAN             OFFICE SURGERY STUDY

                                              EXC1S1ON               OF BREAST             LESION

                                                  MEDICAL           REVIEW         WORKSHEET



   I.        PATIENT         IDENTIFICATION/DE140GRAPHIC                                 ELEMENTS:

              Unfque    identifier                   code
        ;:    I-IIC number
        3.    Surgical     setting
        4.    Date of surgery
        5.    Age of patient
        6.    Race of patient
        7.    Sex of patient
        8.    Surgical      procedure                     (use     HCPCS       codesj

               (Code     for     procedure                 actually  done    as documented;                            not   necessarily
               what     was     submitted                 to HCFA for    reimbursement.                            )

   II”. QUALITY                OF CAkE ELEMEXTS


   PREOPERATIVE


   1.	         Indication              for  surgery               documented?
               (Describe             in dictated                 narrative          if     not        Indicated.         )

               a.	      Presence       of   palpable       lump.         14ust     be    demonstrated                                       by
                        palpation       on physical     examination.          Includes      limp which                                     has
                        not    completely      subsided      after    needling       with    production                                     of
                        fluid     or has     recurred      after     needling       with     production                                     of
                        fluid

               b.       Other         indication

                        (Specffy)

                        (Describe            in       dictated           narrative.              )


   2.	         Generally             not indicated?
               (Describe             f.n dictated                narrative.          )

               a.	      Not appropriate                     procedure              for      lump which             has subsided      after
                        needling      with                  production                   of    fluid,              L.s3. ,  a   zesolve~
                        cyst



                                                                              1

,~d.,refb[~”
        l’l~UICd[               tiUIJfSC)r~      ~)e~-i;(cf~
)




    unique         identifier                 code

             b.	        Other             non-indication

                        (Specify)

    3.       Preoperative                     Screening

             a.         Mammography                   or       sonography            performed?

                        i.	             If    yes,       did      lesion        appear            to        be    a cyst?
                                                ..
                       ii.	             Did      le9ion                feel          like               a        cyst           upon         physical
                                        examination?

                        iii.	           If    lesion             appeared            to      be         a cyst on                  mammogram             or
                                        sonogram           or     appeared           to     be         a cystby
                                        physical               examination                (yes          to       -3ai.     or      3aLi.)      was       an
                                        aspiration               biopsy performed?
             b.	        Is   there             documentation                   of historical                      questioning               regarding
                        bleeding               or coagulation                    problems?

                         i..	           If      yes,            was      a      bleeding                    or      coagulation                problem
                                        identified?

                         ii.            If yes, were coagulation                                 studies            done?

             c.	        IS there                documentation                  of historical                       questioning              regarding
                        cardiac               or pulmonary                 disease?

                         i.	            If yes”, was a signiff.cant                              cardiac             or     pulmonary          disease
                                        identified?

                        ii.	            If 3cL             =    yes   and if patient is >40 and received
                                        anesthesia,               was an ECG done within three weeks prior to
                                        procedure?

                        iii.	           If 3ci.= yes and patient >40 and received anesthesia,
                                        was a  chest x-ray done within three weeks prior to
                                        procedure?
    4.       Preoperative                     Iiistory           and    Physical

             a.	        Is there   documentation                              of a history                   and        physical        having       been
                        done   by the operating                               surgeon?

             b.         Is there documentation concerning a history                                                            and physical      or
                        medical                clearance                from         the          patient’s                  general     medical
                        physician?



                                                                                2

Unique identifier code


      c.	     Was an anesthesiologist or CRNA indicated for this case?
              (Answer yes if an anesthesiologist or CRNA was present or
              there was a need for monitoring or         supervision  by
              anesthesiologist                   or       CilNA.)

              i.	       If          yes,             is         preoperative                anesthesia              review
                      documented?

              ii.       If   yes,       adequate?

              iii. Performed by anesthesiologist?


              iv.     Performed by CRNA?

      d.	     Were the preoperative evaluations adequate?
              (If IV sedation or general anesthesia, should have                                either       a
              history         and     physical     by surgeon      or    medical       clearance          or
              history        and physical        by general   medical      physician        within       one
              week     prior      to procedure.          Local anesthesia          requires         only     a
              brief       history         and  physical.      If    inadequate,           describe         in
              dictated         narrative.      )

5.    Consent       form in record?


6.    If IV sedation              or general                 anesthesia:

      a.      Was preoperative                       blood      pressure         documented?

      b.      Was preoperative                       pulse documented?


      c.      Was preoperative                       temperature            documented?

      d.	      If   yes,         were        vital           signs appropriately                      stable prior to
              procedure?
7.	   If IV sedation or general                                anesthesia,          was patient            NPO prior       to

      procedure?”

      ~ If   no,    describe            In    dictated           narrative.             )

8.	   Appropriateness              of        setting:
      (If   any no,          describe            in dictated               narrative.       )

      a.	     Was the setting appropriate for the type                                           of    procedt~re     given
              the    patient’s               level        of    illness?

      b.	     Was the’type              of     anesthesia             administered              appropriate         for   the
              patient?

      c.	     Was  the setting                        appropriate for the                       type of        anesthesia
              administered?

                                                                 3
Unique identifier code


      d.     Was a mass present only on mammogram or sonogram, i.e. , not

             on	 palpation?
             (In that case would require needle localization in” x-ray
             department, and would not be’ appropriate for office
             setting..)



OPERATIVE


1.	   If IV sedation or general anesthesia,                did   patient have   IV

      inserted for duration of procedure?


2.    Total operating (procedure) time:                 min.

3.	   Total anesthesia   time:            min.
      (If no anesthesia   time    was documented    and the anesthesiologist    or
      CRNA was not present,       enter  N/A for   not applicable.     )

4.    Type of anesthesia:                              Administered by:

      a.     Intravenous     narcotic


      b.     Intravenous     sedative/hypnotic



      c.     Local


      d.     General


5.	   If IV sedation or general anesthesia, does record document vital
      signs during surge~?

      a.     If yes, completed     by:

             i..     Anesthesiologist

             ii.     Surgeon

             iii.. CRNA

             iv.     Other RN

             v.	     Other

                     (Specify)



                                          4

~-o[e~ic   Medical Adukorg       Se,~vLce



   unique identifier code


   6.	     Intraoperative complications?
           (Describe in dictated narrative. )

           a.    If yes, was procedure completed?


           b.    If complication, appropriate intenention?


           c.    If yes to any above, related to anesthesia?


           d.    If yes to any above, related to setting?

   7.      If procedure was begun under local, was it necessary to advance
           to	 IV sedation or general anesthesia?

           (If yes, describe in dictated narrative. )

   8.      Pathological diagnosis documented?

           a.	   If    yes,   list      pathological           diagnoses          below   and   describe   in
                 dictated       narrative.




   POSTOPERATIVE


   1.	     Complications?    (If yes,                  check     any       that    apply.
           dictated narrative. )                                                                Describe   in

           a.
   Infection


           b.
   Inci.sional skin slough

           c.
   Incomplete removal

           d.
   Severe postoperative pain

           e.
   Significant postoperative deformity

           f.    Significant hematoma


           9*    Other


                 (Specify)

                 (Describe in dictated narrative. )


           h.
   If yes to any above, related to anesthesia?


           i.
   If yes to any above, related to setting?


                                                         5

Unique identifier code


2.	   Was  there           documentation           of        postoperative             instructions       being
      given?

3.    Were    postoperative             medications           hdicated?

      a.      If yes, were they appropriately administered?



4.	   Surgical        followup          (postoperative                visit)      within     10   days    after
      surgery?

5.    Was a postoperative management plan documented?

6.    Was there        a postoperative             note       prior        to   discharge?

      a.	     If    yes,      documented        by:

              i.”      Anesthesiologist
              ii.      Surgeon

             iii.      CRNA


             iv.       Other      RN


             v.	       Other


                       (Specify)


7.    a.     If IV sedation or general anesthesia given:

             i.       Was postoperative                  blood pressure documented?


             ii.      Was postoperative                  pulse documented?


      b.     If yes, were vital signs appropriately                                          stable      before

             discharge?

             (If no, describe in dictated narrative. )

8.    Patient alive?

      (Describe death or transfer in dictated narrative. )


      a.     If yes, patient released home?

             (Answer yes if nursing home resident                                     returns to nursing

             home. )


      b.	    If yes, patient transferred to hospi.ta~?                                                    (Yes,

             if direct admit.)



                                                         6
          c.       If yes, patient transferred (not to hospital)?


          d.	  If transferred, specify location.

                                                -

     9.   Admitted to hospital within 15 days (related to procedure)?


          (Describe in dictated narrative. )




10.
 Did patient have followup surgery within 15 days related to

     previous procedure?.

     (Describe in dictated narrative. )


11.
 Overall,             was a reasonable quality of care documented in this

          pati,ent’s        medical        record?

          (If    no,
                   describe in dictated narrative and indicate “need for

          second reviewer under Part 111.2.)



PART III:              RKVIEW INFORMATION

1.        Reviewer        ID:


2.        Second reviewer needed?        *[[

          (Second   reviewer needed  if j%    above is no or                                              for   other

          significant quality or medical necessity issues. )


3.        If yes, second              reviewer        ID


4.        Does      second            reviewer        agree            with      the       opinion   of   the   first
          reviewer?
          ( lf no, describe              in   dictated              narrative.         )

5.        Date    of    first    revj.ew:         /         I
                                                 ——             —
6.        Date o“f second review: _/_/_.





                                                                7
        ~edicaf
~-ofenslc
            Adukory   Seruice




    Answers to questions are indicated according to the following code

    unless othemise specified:


    1 = YES


   2 = NO


   3 = NOT DOCUMENTED OR CANNOT TELL                         ( N/D)

   4=       NOT APPLICABLE (.

                            N/A )



   Exceptions:

   Identification/Demographic                Question          3 .
   ~ = office
   2 = Other

   Demographic  Information            Quest-ion        6
   1 = l?hite
   2 = Black
   3 = Asian
   4 = American   Indian
   5 = Spanish  origin/Hispanic
   6 = Not Documented

   Demographic        Information      Question         7
   1 = Male
   2 = Female
   3 = Unknown

   Operative       Questions      z.   and     3.
                                                        are     indicated   with   actual     time      in
   minutes.

  Operative        Questions      4a.,       4.b., 4.c. and”.4 d

  legend:                                                     . . have the following


            Administered by:

            a. = Mesthesiologist

            b“. = Surgeon

            c. = CRNA

            d. . other RN

            e. “ Other

            f. = Not documented or camot                     tell

            9* = Not applicable

  Reviewer Information Questions 1 and 3 = Three digit coded                                physician
  number.

  Reviewer Information Questions 5 and 6 = mm/dd/yy.




                                                        8

                          APPENDIX                 D


                 DIFFERENCES      IN ALLOWABLE       CHARGES



$i$::(.~i’”;?:            ~;j..”j”..;,”(pe;:;;;g:g:
          %%;%:($fi:’::$i:$
                     %$:(@?;”;”:?:’           ::%”:i{’::.::(~)’l:.;!!”:’.’”
~g@ggQ’:, gg~~pg~gj	            ~R.GYis.8Q2”    .$F:”?eY!3g@:<:: ?’!
                                                                   $“DIlj!FEREg$x
:<.:qQQE”?&@;q~GR          ‘;;:$w~QqE}\’
                                  .,.           ‘:““”’i$.L’L?w@’E;”: .@
                                                                      ETw@N’
    .,,     ,.. ,,.          .,          ,. ,.                 j;: x:.;,::.:(P):.&(.
        ,..                           :’,,,.;i,;~;;
                                                .;:&!>cm$@:?               P).i’
                                                                               ..’
     28293       779.00          28285           339.30             439.70
     28292       565.50          28110           295.00             270.50
     28292       848.25          28285           510.30             337.95
     28292       475.10          28110           307.50             167.60
     58120       280.07          57800            57.97             222.10
     58120       264.20           58100          292.03            (27.83)3
     58120       212.80           58100           54.10             1.58.70
     58120       203.60           58100           40.80             162.80
     58120       130.00           57500           49.80             80.20      7
     58120       239.20           58100           50.40             188.80
     58120       210.00           58100           55.20             154.80
     58120        165.99          58100           52.15             113.84
     58120       224.02           58100           49.30             174.72
     58120       249.60           58100           40.70             208.90
     19120       400.00           11402          100.00             300.00
     19120       226.10           11401           75.00             151.10
     19120        75.00           11400           47.90             27.10
    TOTALS    $5,548.43                       $2,417.45         $3,130.98

1
    Allowable
            charge
                 fortheprocedure
                               codebilled.
2
    Allowable
            charge
                 fortheprocedure
                               codematching
                                          thesurgery
                                                   performed.
3
    The Medicare
               carrier
                    advised
                          thatthephysician
                                        neverbilled
                                                 therevised
                                                          procedure



                                       D-1

           APPENDIX        E

HEALTH
     CARE FINANCING
                  ADMINISTRATION   COMMENTS




                  E-1
                     7    DEPARTMENT      OF HEALTH & HUMAN       SERVICES                         Financing Administration


~‘..         -iii
   -.
        ..   +,,,
             -2
              ,,,0
                                                                                                   Memorandum
               Date


               From       ‘~T~%’,@                           - ‘R 2 G ~
                           Acting Administrator
                                                                                    ..
                Subject   Office
                               ofinspector
                                        General(OIG) -  - Report:
                                                     Draft-      “Physician
                                                                         Office
                                                                              surgery’­

                          (OEI-07-91-00680)

                TO
                          BryanB.Mitchell

                                 Deputyinspector

                          Principal           Genera



                                We reviewed the above-referenced report which evaluates the appropriateness
                          of the surgical setting, the medical necessity of the surgeqr, and quality of care for
                          selected surgical procedures performed in physicians’ offices. The report concludes
                          that physician office surgery suffers from both quality and utilization problems. As a
                          result, OIG recommends that the Peer Review Organizations (PRO) extend their
                          review to surgery performed in physicians’ offices. The report further suggests that
                          its findings be compared to findings from PRO pilot projects on physician office
                          review.

                               LVe WOU{L1liketo~e[erComnlenton the recommendation.The PRO pilot
                          projects lver-e designed to test the feasibility of physician office review and to aid in
                          [he development     of a revieiv protocol. These pilot projects are still ongoing anti the
                          results are preliminary.    After- these projects are completed, we plan to develop
                          irnplemen[a(ion options \vhich would relate to the monitoring of both medical
                          services and surglcai procedures and, at that time, will take into account OIG’S
                          recommendation.       our detailed comments are attached for your consideration.

                               Thank you for the opportunity to review and comment on this draft report.
                          Please advise us if you agree with our position on the report’s recommendation at
                          your earliest convenience.

                          Attachment
            Comments of the Health Care Financin~ Administration (HCFA)

                 on Office of Inspector General (OIG\ Draft Report:

                                Phvsician Office Survey

                                   0EI-07-91-O0680



Recommendation

PROS should extend their review to surgery performed            in physicians’ offices.

HCFA Response

Because Peer Review Organization (PRO) review of physician office care is an
important and complex area, careful attention in the development of good review
methods is necessary before implementing this new PRO review system. Recognizing
the uncertainty of how such review could best be performed, beginning in 1989,
HCFA funded pilot projects to expiore alternative approaches to physician office
review. We believe that we must await the results of these projects and develop
options for implementation before we can conduct a review of medical and/or
surgical services provided in physicians’ offices. We hope to be ready to implement
such review beginning with the Fifth PRO Contract Cycle in 1996.

Although \ve agree that the physician office is a likely and appropriate setting for
further PRO review, our ability to move forward with sucil reviews wiIl also depend
largely on obtaining additional funding. The cost of the PRO program would
dramatically increase with the inclusion of physician office review, even if limited to
surgical procedures.    The actual cost increase would be based on the Ievel and type
of review required. In the current cost cutting environment, HCFA may have a
difficult time obtaining additional funds for the PRO program without substantial
outside support.    [n light of the medical community’s resistance to PRO physician
office review,   this support   may be difficult   to secure.

Genera] Comments

    Executive summary, page i, Background, third paragraph, second sentence
    should read: “Section 1154(a)(4)(A) . . . except that PRO review in physician
    offices could not begin before January 1, 1989.”

    Introduction, page 2, first paragraph, sixth sentence, after “years” an additional
    sentence should be added to read - “It was extended for 1 more year.”

    pages 2-3, we have some concern over the small size of the sample, as well as its
    randomness after so large a number of cases selected were removed from the
    sample prior to (or during) the actual review.
Page 2

�	   The purpose of the study is stated as: ‘To evaluate the appropriateness     of the
     surgical setting, the medical necessity of the surge~, and quality of care for
     selected surgical procedures performed in physicians’ offices.” In the findings
     section of the report, under the heading One-fifth of Medical Records Rew”ewed
     Did Not Document Reasonable Qualitv of Care (pages 4-5), the report states
     that the medical records did not document reasonable quality of care in
     20 percent (25 of 122) cases. Under the heading Thirteen Percent ofOffice
     Sur~eries Were Not Medicallv Necessan(page5), thereport states that the
     medical records did not document an indication for surgexy in 13 percent
     (16 of 122) cases.

     OIG apparently assumes that poor documentation proves that a poor quality of
     care em”sted and that an indication for surgery was not, in fact, present. This
     may have been the case. However, since the physician reviewers did not request
     additional information from the physicians under review, it is difficult to assess
     whether the concerns encountered reflected poor quality of care and lack of
     medical necessity or simply poor documentation.     Although good documentation
     can establish the medical necessity and good quality of care for a procedure, it is
     not necessarily true that poor documentation proves that the medical necessity
     for a procedure was not present or that a poor quality of care was rendered.
     Therefore, it is reasonable to assume that the true figure for poor quality of care
     is below 20 percent and thut the true figure for a lack of medicaI necessity for
     the procedure is less than 13 percent. We would agree, however, that
     percentages considerably less than these figures are still a significant cause for
     concern.

�	   OIG projects that Medicare paid $603,058 for medically unnecessary
     bunionectomies and excisions of breast lesions (presumably in 1989) (page 5).
     Again this figure is likely to be somewhat inflated since thephysician reviewers
     in the study made their decisions according to the documentation in the medical
     record alone and did not request additional information.

�	   The report states that    6 of 122 surgeries were performed in an inappropriate
     setting (page 5). This    figure points up a problematic area in the review of care
     rendered to Medicare      beneficiaries. Presently, there is no routine way of
     identi~ing these cases    for medical rew”ew. If, after office surge~, a patient is
     admitted to a hospital,    some of these cases may be identified by the PRO in the
     course of its review of   its sample cases.
Page 3

     The report
              statesthatthreecasesweredeterminedtohavebeenperformed  in
                    setting
     an inappropriate    due tothetypeofanesthesiainvolved
                                                         (page6).Itk
     difficult
            todeterminetherelative
                                 dangersoftheadministration
                                                          ofanesthesiain
     office
          settings.Physicians’
                            offices
                                  arenotroutinely
                                                inspected
                                                        orcertifiedby any
     grouporagency.Therefore, thestandard
                                        ofcare,       of necessary
                                               presence
     equipment,and thetraining
                             ofpersonnel
                                       varygreatly.

~	   The report states that procedure codes did not match the surgery performed in
     20 cases (page 6). In 16 of the cases, the procedure was determined to be
     upcoded. For the 7 procedures, OIG projects a cost of upcoding at $313,098.
     This finding presents one of the difficulties inherent in reviewing office
     procedures from a cost containment perspective. The medical review of office
     records by the clinicians necessa~ to make the determinations involved is an
     expensive process. To limit the costs of review, it is usually performed on a
     focused or targeted basis. Thus, it is expected that a certain amount of upcoding
     in the general population of claims will not be identified.
